U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               BUREAU OF THE CENSUS

               MAF/TIGER Redesign Project
         Needs Management Improvements to
  Meet Its Decennial Goals and Cost Objective


   Final Inspection Report No. OSE-15725/September 2003




                            PUBLIC
                            RELEASE



                           Office of Systems Evaluation

U.S. Department of Commerce                                                                                     Final Report OSE-15725

Office of Inspector General                                                                                            September 2003




                                                     TABLE OF CONTENTS 



EXECUTIVE SUMMARY ............................................................................................................. i


INTRODUCTION .......................................................................................................................... 1


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 6


FINDINGS AND RECOMMENDATIONS................................................................................... 7 

I. Late Start Implementing Project Management Process Has Increased Risks ............................ 7 

   A. Implementation of a Project Management Process Was Delayed........................................ 7 

   B. Neither Key Managers Nor Adequate Staff Were Assigned to the Redesign Full-Time..... 8 

   C. Time Was Lost and Work Needed to Be Redone................................................................. 9 

   D. More Disciplined Project Management Has Begun............................................................. 9 

   E. Conclusion .......................................................................................................................... 10 

   F. Recommendations............................................................................................................... 10


II. Technical Challenges Warrant Accelerating Software Process Improvement........................ 13 

    A. Lack of a Mature Software Process Compounded Census 2000 Risks ............................. 13 

    B. Census Is Improving Its Software Process ......................................................................... 14 

    C. 	Accelerating Software Process Improvement on the Redesign Will Be A Significant 

         Challenge .......................................................................................................................... 15 

    D. Conclusion.......................................................................................................................... 16 

    E. Recommendations............................................................................................................... 16


Appendix A. Acronyms ............................................................................................................. A-1


Appendix B. Principles of Project Management Organization, Planning, and Control ............ B-1


Appendix C. Bureau’s Response ............................................................................................... C-1 

U.S. Department of Commerce                                                         Final Report OSE-15725

Office of Inspector General                                                                September 2003




                                      EXECUTIVE SUMMARY 


The U.S. Census Bureau—the largest statistical agency of the federal government—conducts the
decennial census of population and housing as well as other surveys and censuses that measure
changing individual and household demographics and the economic condition of the nation.

To carry out this work, the bureau developed and maintains the Master Address File (MAF) and
the Topologically Integrated Geographic Encoding and Referencing (TIGER)1 databases. MAF
is an inventory of address information covering an estimated 115 million residences and 60
million business and other structures in the United States, Puerto Rico, and Island Areas. TIGER
is a digital map containing the locations and names of streets, rivers, railroads, boundaries, and
other geographic features and their geospatial relationship to each other and to MAF addresses.

The complex, voluminous MAF and TIGER databases are essential to the success of the
bureau’s census and survey activities. However, the current data contains an unacceptable level
of inaccuracy, and the systems, which were internally developed by Census to manage the data,
are cumbersome, outdated, and difficult to integrate with newer technology. The bureau has thus
launched a major effort to improve the accuracy of the data and redesign these systems. Known
as the MAF/TIGER Enhancement Program, this 8-year, roughly $500 million undertaking is part
of Census’ overall 2010 decennial census strategy to reduce operational complexity and risks,
contain costs, and improve census results.

The computer and software upgrade portion of the enhancement program—the MAF/TIGER
Processing Environment Redesign—is crucial to the bureau’s attainment of these 2010 goals.
The redesign will replace the bureau’s in-house developed MAF and TIGER systems with a
single integrated system consisting of a standard, commercial off-the-shelf database management
system and Geographic Information System computer products, supplemented where necessary
with in-house developed computer programs. The goals are to develop a system that

    •   supports hand-held Global Positioning System devices for field operations,
    •   permits Internet access to geographic information for local governments,
    •   facilitates faster response to operational requests,
    •   simplifies error-prone operations such as database updates, and
    •   reduces training time for new MAF/TIGER programmers.

The Geography Division is developing this complex, technically challenging system itself, with
contractor assistance, rather than having a contractor design and implement it based on bureau-
provided specifications. Its use of a disciplined project management process that conforms to
federal guidelines and accepted business practices,2 and a methodical software process3 is

1
  TIGER is a registered trademark of the U. S. Census Bureau. 

2
  See the Clinger-Cohen Act of 1996; OMB Circular A-11 Part 7, "Planning, Budgeting, Acquisition, and

Management of Capital Assets"; and, for example, Program Management's Institute's Program Management Body of

Knowledge.

3
  See Carnegie Mellon University’s Software Engineering Institute (SEI) Capability Maturity Model (CMM) for 

Software. 



                                                     i
U.S. Department of Commerce                                                        Final Report OSE-15725

Office of Inspector General                                                               September 2003


essential for there to be enough time for the system to be thoroughly tested before the 2008 dress
rehearsal and completed within its estimated $50 million budget.

Past Census experience has shown the importance of effective project management and software
development, and the costs—both in dollars and diminished outcomes—associated with the lack
thereof. In our reviews of Census 2000, we found that the bureau did not have enough
experienced staff to manage expensive, complex system projects and that the bureau’s approach
to software development was often ad hoc and lacking proper controls, product testing, and
documentation.4,5 As a result of its Census 2000 experience, the bureau initiated a management
training program and a bureau-wide program for improving its software process. In addition, it
stated that it intends to use a more formal software process for development of the new
MAF/TIGER system.

We conducted this evaluation to determine whether Census has established and is following
accepted processes for managing and developing the redesigned MAF/TIGER system in light of
the bureau’s past decennial experience with information technology projects, our related
recommendations for improvements, federal requirements, and industry-endorsed project
management and software processes. Our findings and recommendations are as follows:

Late start implementing project management                       Project Management Process
process has increased risks. Although the
project had been underway for 1½ years at the                 Project Management Organization
start of our evaluation, Census had yet to
implement a comprehensive project
management process (see figure)—it had not               Planning                        Control
established a management organization (the
sponsor, review board, a full-time project
                                                                             Re-
manager, and key project team members); or                  Scope                         Decide
                                                                             Baseline
developed a comprehensive project plan
identifying the scope of work (i.e., the system’s
requirements and architecture), the strategy for          Strategy                        Report
building the system and all major intermediate
products, and the activities needed for project
completion (the work breakdown structure). It               WBSa             C/S/Pb      Compare
                                                                            Baseline
had not assigned baseline activity-level cost,
schedule, or performance (C/S/P) parameters.
Nor had it implemented required controls such        a
                                                     b
                                                       Work Breakdown Structure
                                                                                          Collect
                                                       Cost/Schedule/Performance
as “earned value management,” which is an                                                 C/S/P
objective, quantitative technique for measuring                                            Data
project progress by obtaining reliable, timely
project data and evaluating it against the
baseline to support decision-making throughout the project’s life cycle. In the absence of an
effective management process to guide the redesign’s progress, several initial project activities

4
  Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010, OIG-14431, Spring

2002. 

5
  A Better Strategy Is Needed for Managing the Nation’s Master Address File, OSE-12065, September 2000. 


                                                    ii
U.S. Department of Commerce                                                                               Final Report OSE-15725
Office of Inspector General                                                                                      September 2003

did not produce the results needed to proceed to the next stage of development and had to be
reworked. These setbacks increase the risk that there will not be enough time for the system to
be thoroughly tested before the 2008 dress rehearsal.

Census officials have recently begun implementing more disciplined project management. They
attribute their slow start to understaffing and the diversion of key personnel to other high-priority
projects in progress when the redesign was initiated. We recommend that Census identify and
fill staffing needs for the redesign as quickly as possible and implement a project management
process, to include the project management organization, a comprehensive plan, appropriate
project controls, and a commitment of adequate resources for their proper implementation.
(See page 7.)

Technical challenges warrant accelerating software process6 improvement. Because the
bureau had no structured process for determining requirements, implementing software,
conducting testing, and providing quality assurance for Census 2000, last minute system
requirements and software changes were a way of life. This experience prompted the bureau in
2002 to implement a multi-year software process improvement program using the 5-level
Capability Maturity Model (CMM) for software developed by the Carnegie Mellon Software
Engineering Institute (SEI). The redesign and the software improvement program both started
around the same time. Thus, the redesign project did not apply improved processes from the
improvement program or elsewhere to its initial activities.

The complex redesign project must be guided by a more mature software process to increase the
likelihood that it will meet system requirements, as well as cost and schedule projections, and for
there to be enough time for the system to be thoroughly tested before the 2008 dress rehearsal.
The redesign is therefore attempting to accelerate development and implementation of CMM
level 2 capabilities (see table):

                                                            CMM Level 2

    Maturity Level 2                        Description                                         Key Process Areas

                                                                                    Requirements management
                         Basic project management processes are
    Repeatable                                                                      Software project planning
                         established to track cost, schedule, and
    Project                                                                         Project tracking and oversight
                         functionality. The necessary process discipline
    management                                                                      Subcontract management
                         is in place to repeat earlier successes on
    processes                                                                       Software quality assurance
                         projects with similar applications.
                                                                                    Configuration management
Source: Software Engineering Institute, The Capability Maturity Model, Guidelines for Improving the Software Process.


Upgrading the current process to CMM level 2 is essential to providing the elements most
critical to controlling a complex software project—requirements management; project planning,
tracking, and oversight; configuration management; and quality assurance. However, according
to SEI, the median time for advancing from level 1, the bureau’s current status, to level 2 is
2 years. Thus, the bureau needs to develop a plan and strategy that will significantly shorten this
duration for the redesign. We recommend that the bureau provide the management commitment,
6
 A software process is a set of activities, methods, practices, and transformations that are employed to develop and
maintain software and the associated products (e.g., project plans, design documents, code, test cases, and user
manuals).

                                                                  iii
U.S. Department of Commerce                                                    Final Report OSE-15725
Office of Inspector General                                                           September 2003

resources, and oversight needed to attain CMM level 2 capabilities as soon as possible on the
redesign, and ensure that the activities to implement those practices are reflected in the project’s
management plan. (See page 13.)



In its response to our draft report, the Census Bureau generally concurs with our findings and
recommendations. Moreover, Census states that it has already started implementing our
recommendations. Specifically, Census has started making substantive improvements to its
project management and software development processes. These actions include:
(1) reorganizing the decennial directorate to provide additional resources, management support,
and oversight, (2) filling key project positions, (3) documenting roles and responsibilities of the
project management organization, (4) developing the project management plan, and (5) working
with internal and contractor experts to establish a repeatable software engineering process. Also,
Census has committed to starting to use earned value management in FY 2004 to control the
project. We believe these actions will increase the likelihood that the MAF/TIGER redesign will
achieve its goals for the 2010 Census and be completed within its budget estimate.

Census’ response has raised a new concern about MAF/TIGER redesign testing, however. In
decennial documentation we reviewed during our fieldwork, the 2006 census test is identified as
the last operational test of the decennial system infrastructure before the 2008 dress rehearsal.
The documentation did not indicate that the redesigned MAF/TIGER system would not be part
of the test, nor did the recently developed MAF/TIGER project plan address any additional
testing that would have to be performed as a result of the system not being part of the 2006 test.
In its response, however, Census states that the redesigned MAF/TIGER system is not scheduled
to be part of this 2006 test because (1) the system will not be ready to produce preparatory test
products needed in the fall of 2004, and (2) the system will not be fully deployed until 6 months
after the test’s census day (April 1, 2006). Census, in its response, recognizes that additional
testing will have to be carried out because the system will not be part of the 2006 test. Moreover,
Census states that in 2004 it will develop a system test plan for all testing required, including
confirming that the redesign meets the 2006 operational and system interface test objectives.

Based on this new information, we are concerned that the redesigned MAF/TIGER system will
not be adequately tested in an operational environment with other decennial systems before the
dress rehearsal. In light of this concern, we have expanded the third recommendation in our first
finding to state that the Census Bureau should re-examine the MAF/TIGER project management
plan to determine the feasibility of testing completed system components in the 2006 census test,
and should document the test strategy for confirming that the redesign meets the 2006
operational and system interface test objectives in the system test plan. Also, because of the
bureau’s response regarding the 2006 test, we have modified our discussion of the system’s role
in the test and have changed the report title accordingly.

A synopsis of Census’ response and our comments are presented after each finding. Census’
response is included in its entirety as Appendix C.




                                                 iv
U.S. Department of Commerce                                                  Final Report OSE-15725

Office of Inspector General                                                         September 2003




                                               INTRODUCTION 


As the largest statistical agency of the federal government, the U.S. Census Bureau is charged
with gathering and disseminating statistics and information about the people and economy of the
United States. In fulfilling this mission, the Census Bureau conducts the decennial census of
population and housing as well as other surveys and censuses that measure changing individual
and household demographics and the economic condition of the nation.

Census strives to make its information products as accurate as possible because they help shape
our federal and state governments and policy decisions. The decennial census, for example, is
used to apportion seats in the United States House of Representatives, draw federal and state
legislative districts, and distribute hundreds of billions of dollars in federal and state funds.

The Census Bureau has begun implementing a new approach to the 2010 census that seeks to
reduce operational risk, improve the accuracy of census coverage, and contain costs. The
components of this approach are (1) enhancing the accuracy of its address and digital map data,
and redesigning the systems on which they reside, (2) collecting detailed demographic data
throughout the decade through the American Community Survey (ACS) in order to eliminate the
census long form, and (3) early planning, development, and testing of the short-form only 2010
census.

MAF and TIGER Databases

To carry out its censuses and surveys, the Census Bureau developed and maintains address and
geographic location data on the nation’s residences and businesses. The Master Address File
(MAF) is an inventory of address information covering an estimated 115 million residences and
60 million business and other structures in the United States, Puerto Rico, and Island Areas.
MAF is used for delivering questionnaires, carrying out personal interviews, and tracking
responses. The Census Bureau decided to develop a permanent address list after the 1990
decennial, and collected and updated address information throughout the 1990s using the U.S.
Postal Service’s Delivery Sequence Files, information from local governments, and labor-
intensive canvassing. Because Title 13 of the United States Code prohibits disclosure of address
information, use of MAF data is mostly restricted to the Census Bureau.

The Topologically Integrated Geographic Encoding and Referencing (TIGER)1 database is a
digital map containing the locations and names of streets, rivers, railroads, jurisdictional
boundaries, and other geographic features and their geospatial relationship to each other and to
MAF addresses. TIGER is used for orienting Census field staff and tabulating census and
household survey data. With geographic data supplied by the U.S. Geological Survey, the
Census Bureau developed TIGER and the computer program that manages the database in the
early 1980s. The public version of TIGER, the TIGER Line Files, has provided base mapping
information for the Geographic Information System (GIS) industry in the United States.



1
    TIGER is a registered trademark of the U. S. Census Bureau.


                                                          1
U.S. Department of Commerce                                                            Final Report OSE-15725
Office of Inspector General                                                                   September 2003

MAF/TIGER Enhancement Program

The bureau has launched a major effort to improve the accuracy of MAF and TIGER data and
redesign the computer systems on which they reside. The effort—called the MAF/TIGER
Enhancement Program (MTEP)—is part of Census’ overall 2010 decennial census strategy to
reduce operational complexity and risks, contain costs, and improve census results. The
improvements envisioned by MTEP have the potential of yielding significant savings for other
bureau statistical activities as well, including demographic survey programs and economic
censuses. The MAF/TIGER Processing Environment Redesign project, which is the subject of
this report, is part of MTEP.

A primary reason the bureau has undertaken MTEP is because the current MAF and TIGER data
has an unacceptable level of inaccuracy. One of the major goals of MTEP is to put TIGER
features and MAF addresses at their true geographic location, which will allow the Census
Bureau to use modern locational technology such as the Global Positioning System (GPS) that
could, for example, help field staff locate rural addresses using GPS-enabled mobile computers.

Funding for MTEP started in FY 2002, and the program is estimated to cost in excess of
$500 million when it is completed by FY 2010.2 Its most expensive component is an 8-year,
$200 million contract to improve the accuracy of Census’ address list and digital map. The
redesigned MAF/TIGER processing environment will facilitate managing this more accurate
data.

MAF/TIGER Processing Environment Redesign

The current MAF and TIGER systems are cumbersome to use and maintain and difficult to
integrate with newer technology. They consist of internally developed computer programs that
manage and update the data, and create data products. TIGER is a large, complex system that
has been two decades in the making. Combined, MAF and TIGER have grown to 33 million
lines of computer program code. MAF and TIGER products are used throughout the Census
Bureau for operational planning and data collection. TIGER products are also used by other
federal agencies; state, local, and tribal governments; industry; and educational institutions.

The purpose of the redesign project is to replace these in-house developed systems with a single,
integrated system residing in a modern processing environment consisting of a standard,
commercial off-the-shelf (COTS) database management system and GIS computer products,
supplemented where necessary with in-house developed computer programs. The goals are to
develop a system that

    •   supports hand-held GPS devices for field operations,
    •   permits Internet access to geographic information for local governments,
    •   facilitates faster response to operational requests,

2
  The MTEP consists of 5 objectives: (1) improve address/street location accuracy and implement automated change
detection; (2) implement a modern processing environment; (3) expand and encourage geographic partnership
options; (4) support the American Community Survey which gathers detailed population and housing data
throughout the decade; and (5) implement periodic evaluation activities and expand quality metrics.


                                                       2
U.S. Department of Commerce                                                                  Final Report OSE-15725

Office of Inspector General                                                                         September 2003


      •    simplifies error-prone operations such as database updates, and
      •    reduces training time for new MAF/TIGER programmers.

The Census Bureau’s Geography Division3—the developer of the current MAF and TIGER
systems—is responsible for the redesign project. The Geography Division is developing the new
system itself, with contractor assistance, rather than having a contractor design and implement it
based on bureau-provided specifications. Funding for the redesign started in FY 2002 with an
$8 million allocation. Another $11.5 million was allocated in FY 2003. The bureau estimates
the total cost for the redesign at about $50 million, and project completion in FY 2006.

Census wants to fully test major elements of its systems and new approach before the 2008 dress
rehearsal so it can avoid problems it encountered in the past. The purpose of the 2006 decennial
integration test is to bring together software and hardware components that will support the new
approach envisioned for Census 2010.                          Figure 1. Decennial Major Milestones
The timing of the 2006 test (see figure 1)
was selected to allow the bureau enough               2002 Begin Planning & Develop Method for 2004 Test
time to fix system and integration                   2004 Conduct Census Test (Methodology)
problems before testing under the dress              2005 Analyze Results and Refine Methodology
rehearsal’s real-time conditions, in the             2006 Conduct Census Test (Systems Integration)
hopes that only minor refinements will               2007 Analyze Results, Refine/Integrate Systems/Methods
then be necessary to be ready for 2010.
                                                     2008 Conduct Dress Rehearsal
However, according to the bureau, the
                                                     2009 Begin to Implement Operation
MAF/TIGER redesign will not be ready
in time to be part of the 2006 test.                 2010 Conduct Census
Insufficient system testing was identified      Source: Census Briefing to the National Academy of Sciences, Sept. 2002.
as a problem in the bureau’s preparation
for the 2000 decennial census by the U.S. General Accounting Office4—a deficiency that
increased risk and added unnecessary expense, and that the bureau does not want to repeat.

At the end of FY 2006, Census plans to have all existing MAF/TIGER data transferred to the
redesigned COTS-based system. At that point, the Geography Division will shut down the old
systems, enter all new data into the redesigned database, and maintain it as part of the ongoing
Geography Division system maintenance program. Failure to meet this deadline could
compromise preparations for the dress rehearsal as well as complicate ongoing operations
because the Geography Division would have to manage both the old and new systems.

Software development for the redesign presents considerable technical challenges. It will
involve (1) identifying the many capabilities of the existing large and complex system, including,
for example, the detailed rules for manipulating TIGER map features; (2) implementing complex
requirements such as providing electronic maps and address lists for mobile computing devices
in the field and synchronizing updates to MAF/TIGER from regional offices, the postal service,
and potentially 39,000 local governments, and maintaining data currency for the ACS;
(3) integrating COTS products, not all of which have been tested in the marketplace; (4) using
modern software analysis, design, and coding techniques with which the Census development
3
    The Geography Division is a component of the Office of the Associate Director for Decennial Census.
4
    2000 Census: Headquarters Processing System Status and Risks, GAO-01-1, October 2000.


                                                           3

U.S. Department of Commerce                                                         Final Report OSE-15725
Office of Inspector General                                                                September 2003

team is unfamiliar; (5) preserving the integrity of complex and voluminous data when
transferring it from the old databases to the new one; and (6) ensuring Title 13 data security.

The success of the redesign is a crucial component in the ultimate success and cost-effectiveness
of Census 2010. Commerce has designated the redesign as a major information technology (IT)
project because of its cost, complexity, and importance to the bureau’s mission. As such, it is
essential that the redesign be carefully managed according to federal guidelines and accepted
business practices5 and that Census use a methodical process for software development.6

Past Census experience has shown the importance of both disciplined project management and
mature software processes, and the costs—both in dollars and diminished outcomes—associated
with the lack thereof. In our reviews of Census 2000, we found that the bureau did not have
enough experienced staff to manage expensive, complex system projects and that the bureau’s
approach to software development was often ad hoc and lacking proper controls, product testing,
and documentation, leaving the bureau to correct system errors as the census was being
conducted.7,8 As a result of its Census 2000 experience, the bureau initiated a management
training program and a bureau-wide program for improving its software process. In addition, it
stated that it intends to use a more formal software process for development of the new
MAF/TIGER system.

Because the bureau is developing this complex, technically challenging system itself, it must
employ the same disciplined management processes as would be used by a competent system
development contractor. We assessed the project management and software processes of the
redesign thus far in light of the bureau’s past history, our recommendations for improvements,
federal requirements, and established industry principles for managing major IT projects and
improving software processes.



Synopsis of Census’ Response

Census states that the redesigned MAF/TIGER system is not scheduled to be part of the 2006
census test because (1) the system will not be ready to produce preparatory test products in the
fall of 2004, 1½ years in advance of test census day (April 1, 2006) and (2) the system will not
be fully deployed until 6 months after census day. In its response, Census recognizes that
additional testing will have to be carried out because the system will not be part of the 2006 test
and states that it will confirm that the redesigned system will meet 2006 census test objectives.
Census further states that it will describe MAF/TIGER redesign testing in a system test plan to
be developed in 2004.

5
  See the Clinger-Cohen Act of 1996; OMB Circular A-11 Part 7, "Planning, Budgeting, Acquisition, and

Management of Capital Assets"; and, for example, Program Management's Institute's Program Management Body of

Knowledge.

6
  See Carnegie Mellon Software Engineering Institute (SEI) Capability Maturity Model (CMM) for Software. 

7
  Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010, OIG-14431, Spring

2002. 

8
  A Better Strategy Is Needed for Managing the Nation’s Master Address File, OSE-12065, September 2000. 



                                                     4

U.S. Department of Commerce                                                   Final Report OSE-15725
Office of Inspector General                                                          September 2003

OIG Comments

In decennial documentation we reviewed during our fieldwork, the 2006 census test is identified
as the last operational test of the decennial system infrastructure before the 2008 dress rehearsal.
The documentation discussed a systems integration test and did not indicate that the redesigned
MAF/TIGER system would not be part of the test, nor did the recently developed MAF/TIGER
project plan address any additional testing that would have to be performed as a result of the
system not being part of the 2006 test. Based on this new information, we are concerned that the
redesigned MAF/TIGER system may not be adequately tested in an operational environment
with other decennial systems before the dress rehearsal. Thus, the additional testing the bureau
has indicated it will conduct is of utmost importance.




                                                 5

U.S. Department of Commerce                                                      Final Report OSE-15725

Office of Inspector General                                                             September 2003




                       OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of our review was to assess whether management and software development
processes as well as project and system documentation were adequate to support the redesign
project. Specific objectives were to: (1) assess the extent to which a project management process
has been established and used as well as any plans for improvement; (2) assess the extent to
which a software process has been established and used as well as any plans for process
improvements; and (3) assess project plans and system documentation.

To accomplish these objectives, we asked the bureau to present a project management review
briefing to us, describing the redesign’s structure, status, and technology, as well as the policies,
procedures, and tools used for project management and software development. We reviewed
documentation for the overall MAF/TIGER Enhancement Program and for the redesign effort,
including the MTEP business case, cost model, modernization study, management plan, status
reports, and capital asset plans; the redesign’s requirements specification; and other project
documents. We met with the assistant director for decennial census, the Geography Division
chief (who has since retired) as well as the acting chief, the MTEP program manager, the
redesign project manager, and other key staff.

We chose to review the redesign portion of the overall enhancement project in part at the request
of the associate director for decennial census and in part to follow up on management and
software development issues we reported with regard to Census 2000.9 We conducted our
fieldwork from January through May 2003, limiting our review to the management and system
development processes used in redesigning the new environment.

We performed our work in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.




9
 See Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010, OIG-14431,
Spring 2002.



                                                   6
U.S. Department of Commerce                                                            Final Report OSE-15725

Office of Inspector General                                                                   September 2003


                                     FINDINGS AND RECOMMENDATIONS

I. Late Start Implementing Project Management Process Has Increased Risks

When we started our review, nearly a third of the 5-year timeframe for completing the
MAF/TIGER redesign had passed, but Census had not implemented a comprehensive project
management process. A conceptual depiction of the project management process is presented in
figure 2 and the process is further described in Appendix B. Specifically, Census had yet to

             Figure 2. Project Management Process       • 	 establish a management organization (the
                                                            sponsor, review board, a full-time project
                Project Management Organization             manager, and key project team members);

                                                        •   develop a comprehensive project plan
           Planning                        Control          identifying the scope of work (i.e., the
                                                            system’s requirements and architecture), the
                              Re-                           strategy for building the system and all
             Scope                         Decide
                              Baseline                      major intermediate products, and the
                                                            activities needed for project completion (the
                                                            work breakdown structure) that include
            Strategy                       Report
                                                            baseline activity-level cost, schedule, and
                                                            performance (C/S/P) parameters; or
             WBSa             C/S/Pb      Compare
                             Baseline                   • 	 implement required controls, such as earned
                                                            value management10, for obtaining reliable,
     a
                                                            timely project data and evaluating it against
         Work Breakdown Structure
     b
         Cost/Schedule/Performance         Collect          the baseline to support decision-making
                                           C/S/P            throughout the project’s life cycle.
                                            Data

                                                   In the absence of an effective management
process to guide the redesign’s progress, several initial project activities had not produced the
results needed to proceed to the next stage of development and had to be reworked. These
setbacks increase the risk that there will not be enough time for the system to be thoroughly
tested before the 2008 dress rehearsal. Bureau officials were responsive to our concerns and
have started to take corrective actions.

A. 	Implementation of a Project Management Process Was Delayed

At the start of our evaluation, Census had not established a project management organization for
the MAF/TIGER redesign. There was no review board and no project manager, and while a
project leader had been designated to work on the redesign, he was part-time and lacked both
staff and authority to direct project activities.

10
  OMB requires that earned value management policies, procedures, and systems comply with ANSI/EIA standard
748-A, “Earned Value Management,” and that agencies report earned value measures for major IT projects in their
capital asset plans, which are part of their annual budget submissions.



                                                       7
U.S. Department of Commerce                                                                Final Report OSE-15725
Office of Inspector General                                                                       September 2003


Moreover, the bureau did not develop a comprehensive project plan. It had not gathered and
analyzed key planning information regarding the scope of the project (e.g., the size of the legacy
system and the new architecture), completed addressing system requirements for end users
outside the Geography Division, or identified the activities needed to complete the project.
Consequently, it had neither a realistic strategy nor a WBS.

We also found that Census had not established adequate management controls and thus had
already lost critical time in preparing for the project’s execution. It was not intending to use
earned value management for the redesign, believing this methodology was only required for
contractors. As a result, it had not defined policies and procedures for earned value management
and had not established other controls necessary for tracking and reporting. Census could not
reliably report actual performance against overall project goals because it could not develop a
C/S/P baseline without a WBS and work packageswhich define component activities on a
scale small enough to allow for work to be budgeted, scheduled, assigned, and monitoredand
could not capture and track cost data at the activity level. Similarly, the Geography Division's
software process was immature (as discussed in finding 2), which meant the project team did not
have standard procedures for conducting activities or evaluating the quality of intermediate and
final products. Finally, the bureau had no reliable information against which to judge how the
project was unfolding—the monthly MTEP narrative report did not provide details on its
progress, and cost and completion data for redesign activities in the capital asset plan, which is
part of the annual budget submission, was not based on objective, quantitative information,
which would have been gleaned from earned value management.

B. Neither Key Managers Nor Adequate Staff Were Assigned to the Redesign Full-Time

According to decennial and Geography Division management officials, implementation of basic
elements of project management was delayed largely because key redesign personnel were
diverted to higher priority projects. During FY 2002, the assistant division chief11 responsible
for the redesign was assigned to several projects, including preparation for decennial tests and
Geography Division support to other bureau survey operations. Other assistant division chiefs
participating in the redesign were diverted to the large MTEP contract for obtaining more
accurate MAF/TIGER data. The delay has been exacerbated, according to the bureau, by
insufficient staffing levels for the project—a difficulty officials attribute to their decision not to
hire new Geography Division employees while the bureau was operating under continuing
resolutions in FY 2002 and FY 2003.

Hiring constraints, competing staff priorities, and funding uncertainties have been recurring
problems at the Census Bureau and impacted Census 2000 preparations and operations as well.
Given this reality, bureau management must anticipate and plan for these challenges in order to
ensure the success of the redesign effort.




11
     The Geography Division has seven subdivisions, each one managed by an assistant division chief.


                                                          8
U.S. Department of Commerce                                                                   Final Report OSE-15725
Office of Inspector General                                                                          September 2003

C. Time Was Lost and Work Needed to Be Redone

When $8 million became available in FY 2002 to begin the redesign, Geography Division
managers formed groups to work on three project activities: milestone development,
requirements analysis, and COTS market research. However, in the absence of a project
management process, these activities were uncoordinated and inadequately performed
(see table 1).

                               Table 1. Major FY 2002 Redesign Project Activities

                   Activity          Funding                      Results                      Rework

                                                 High-level schedule
            Milestone Development    Unknown                                                     Yes
                                                 Not supported by detailed work plan
                                                 Extended data model
            Requirements Analysis     $2.5 M                                                     Yes
                                                 Little progress on functional requirements
                                                                                              Continued
                                                 Selected database management system
            COTS Market Research      $2.0 M                                                     past
                                                 Limited results for GIS research
                                                                                               deadline
          Source: MTEP Monthly Reports, October and November 2001; MTEP Capital Asset Plan, August 2002, and
          Interviews.


Specifically, we found that the milestone activity did not produce a detailed work plan that could
be used to guide the project. Similarly, the requirements analysis resulted in a specification that
did not contain all the information needed to begin systems analysis and design. Both activities
are now being reworked. Although the COTS market research did lead to the selection of a
database management system, the GIS portion of the research produced only limited results for
planning and evaluating commercial products, and work is continuing past the initial deadline.
We were unable to determine the impact of the repeated work on the overall funding
requirements for the redesign project, because only partial funding information was available for
these activities and, as noted earlier, actual expenditures at the activity level were not being
tracked.

D. More Disciplined Project Management Has Begun

Decennial and Geography Division officials responded to the concerns we raised during our
evaluation and have begun implementing basic elements of project management. In February
2003, they convened a steering committee to discuss the project’s organization. It now meets
biweekly to monitor project progress. At the end of March, the acting Geography Division chief
issued a decision memorandum officially naming the assistant division chief leading the redesign
as the project manager, as well as establishing the redesign requirements and development teams.
However, project documentation we reviewed did not fully describe the redesign’s management
organization. Specifically, the roles and responsibilities of the project sponsor and steering
committee were not addressed, nor were the process and authority for deciding whether to
continue as planned or to modify the plan at key project milestones.

The redesign team is now developing a project plan that includes the components of the project
management process described earlier (see figure 2). With assistance from a recently hired
contractor, the team is analyzing factors affecting the project’s scope such as the size and


                                                         9

U.S. Department of Commerce                                                   Final Report OSE-15725
Office of Inspector General                                                          September 2003

architecture of the legacy system and the redesign’s high-level requirements, creating a new
architecture showing where COTS products could replace the legacy system’s internally
developed components, and developing a WBS and corresponding schedule.

The bureau is also preparing to implement earned value management to track the project, and has
informed us that actual staff costs would be captured at the activity level. However, staff costs
represent only one piece of a comprehensive set of data required to effectively support earned
value management. Use of this methodology is new to the bureau, and it will have to give
considerable effort and commitment to make the transition from its current management
practices to those of earned value. For example, it will need to conduct more detailed work
planning and resource estimation; tie associated costs to project activities; implement new
methods for evaluating activities; and develop new reporting formats to present the project’s
earned value metrics.

E. 	Conclusion

Project management for the redesign is improving. However, the failure to implement an
effective management process at the project’s inception has resulted in the loss of valuable time
and increased the risk that the new MAF/TIGER system may not be thoroughly tested before the
2008 dress rehearsal. Because the bureau lacks experience in applying disciplined management
processes to complex software projects, designing and implementing these processes for the
redesign project involve considerable work and pose significant challenges. The bureau needs to
reassess its original project objectives, adjust them as warranted to account for the risks posed by
the delayed implementation of a project management process, and develop contingency plans in
the event that essential requirements cannot be implemented on time.

F. 	Recommendations

The Census Bureau Director should ensure that the appropriate management officials take the
following actions as soon as possible:

1. 	 Dedicate adequate and stable staffing to the redesign project. Census needs to
        a. 	 identify staffing requirements, to include an appropriate mix of bureau and contractor
             employees,
        b. 	 establish milestones for meeting needed staffing levels, and
        c. 	 develop a strategy for overcoming anticipated obstacles such as funding uncertainties
             and for prioritizing work demands.

2. 	 Fully define and document the project management organization, to include identification of
     project management roles and responsibilities, including the decision-making process and
     management components.




                                                10 

U.S. Department of Commerce                                                     Final Report OSE-15725
Office of Inspector General                                                            September 2003

3. 	 Complete the redesign project plan. The plan should
       a. 	 incorporate a revised project strategy and objectives based on an assessment of
            current project risks,
       b. 	 include contingency plans for delivering essential system requirements in time to
            meet the September 30, 2006 project completion date,
       c. 	 consider feasibility of testing completed system components in the 2006 test, and be
            updated to reflect additional testing required for confirming that the redesigned
            system meets the 2006 operational test and system interface test objectives, and
       d. 	 be updated if the baseline changes.

4. 	 In accordance with OMB requirements and ANSI/EIA-748-A, establish policies and
     procedures for controlling the redesign project that call for
         a. collecting actual activity-level costs for government and contractor staff on a regular
              basis,
         b. 	 reporting earned value measures to senior and project managers who can take
              corrective actions when project progress significantly deviates from the baseline, and
         c. 	 presenting earned value information in the capital asset plan.

5. 	 Develop a schedule for implementing the above recommendations.

6. 	 Provide adequate resources, management support, and oversight to ensure that
     responsibilities are carried out as defined in the project’s charter and plan, and that project
     controls are properly implemented.



Synopsis of Census’ Response

In its response to our draft report, the Census Bureau generally concurs with the above finding
and recommendations and has already taken action to implement some of them. Specifically,
Census has completed and approved the baseline project management plan. The plan identifies
annual staffing requirements and describes project roles and responsibilities. Census intends to
add a description of the decision making process to the plan and update the plan if risk
assessments indicate that a change in strategy is necessary. Also, Census states that it has filled
4 key project positions—the system architect and 3 functional area managers. Further, Census
has committed to tracking government and contractor staff costs on a monthly basis, improving
project oversight, and developing a schedule for implementing recommendations not yet in
place. Notably, Census has reorganized the decennial directorate to provide additional
management support and oversight to the MAF/TIGER redesign project.

As noted previously, Census states in its response that redesigned MAF/TIGER will not be ready
to participate in the 2006 census test. In lieu of participating in the 2006 test, Census also states
that it will confirm that the redesigned system will meet the 2006 test objectives through
additional testing. Moreover, Census states that it will develop a system test plan for all testing
required, including confirming that the redesign meets the 2006 operational and system interface
test objectives.


                                                  11
U.S. Department of Commerce                                                  Final Report OSE-15725
Office of Inspector General                                                         September 2003



OIG Comments

Although Census generally concurs with our recommendations and has started to implement
them, it still needs to fully address several concerns. Specifically, Census needs to more fully
define the roles and responsibilities of the project sponsor and steering committee in the project
management plan. Although Census states that it is currently reporting earned value information
in its capital asset plan (Exhibit 300) and will report these measures to the steering committee,
budget, schedule, and performance must be estimated and tracked at the detailed activity level to
provide more reliable and useful earned value information.

We have expanded the third recommendation (3.c.) to address the new information Census
provided in its response about the redesigned MAF/TIGER system not being part of the 2006
census test. We believe the Census Bureau should re-examine the MAF/TIGER project
management plan to determine the feasibility of testing completed system components in the
2006 census test. Also, the bureau needs to update the project management plan with the test
strategy for confirming that the redesign meets the 2006 operational and system interface test
objectives.




                                                12 

U.S. Department of Commerce                                                             Final Report OSE-15725
Office of Inspector General                                                                    September 2003

II. Technical Challenges Warrant Accelerating Software Process Improvement

Problems developing and maintaining software during Census 2000 prompted the bureau to
subsequently implement a software process improvement program. However, the redesign and
the software improvement program both started around the same time. Thus, the redesign did
not apply improved processes from the improvement program or elsewhere to its initial
activities. Given the technical challenges of the critical MAF/TIGER system, the bureau must
employ a more mature software process on the redesign, and thereby increase the likelihood of
meeting system requirements, as well as cost and schedule projections, and having enough time
for the system to be thoroughly tested before the 2008 dress rehearsal. Although the bureau’s
software process is still too incomplete to provide the needed level of discipline, the bureau is
now taking action to accelerate software process improvement for the redesign project.

A. Lack of a Mature Software Process Compounded Census 2000 Risks

For Census 2000, last minute system requirements and software changes were a way of life.
Because a formal software process has not been a Census tradition, staff often provided system
requirements via e-mails, hallway conversations, and meeting notes. The results of having no
consistent approach to developing and managing requirements have been confusion, wasted or
duplicated efforts, and inadequate control over software modifications. With no structured
process for determining requirements, implementing software, conducting testing, and providing
quality assurance, the bureau found itself making many software changes to systems needed to
support decennial operations already underway. Under such intense pressure, Census
management had to rely on the few very experienced IT professionals familiar with its systems.
As Census itself has noted, this work—conducted without standard policies and procedures, and
by an overextended core staff—increased the risks of flawed logic in Census 2000 tabulations.12

Census needs to systematically document the requirements a system must meet, and develop
processes for communicating, implementing, and managing changes to them. Without a
corporate-wide software process, communication regarding software/system requests or
problems between the system’s stakeholders and developers, and among divisions is
compromised. As noted in previous OIG reports, the bureau must implement a disciplined
system and software development process that is supported by Census leadership, planning, and
training.13 Research shows that software developed in the absence of a mature process has, on
average, five times more defects than software developed according to basic process
improvement principles such as requirements management and software quality assurance.14




12
   Waite, Preston J., Obenski, Sally M., Buckley, Lisa E., 2010 Census Planning: The Strategy, 2001, U.S. Census 

Bureau, August 2001. Paper prepared for the 2001 Joint Statistical Meetings, Atlanta. 

13
   Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010, OIG-14431, Spring

2002. 

14
   Paulk, Mark C., Investing in Software Process Improvement: An Executive Perspective. SEI, April 29, 2003. 

Presentation at the 2003 Census SEPG Conference. 



                                                       13
U.S. Department of Commerce                                                                             Final Report OSE-15725
Office of Inspector General                                                                                    September 2003

B. Census Is Improving Its Software Process

Not wanting to repeat the experience of the last decennial, the bureau has committed to
improving its software process using the Capability Maturity Model (CMM) developed by the
Carnegie Mellon Software Engineering Institute (SEI), a federally funded research and
development center. The CMM for software provides a roadmap for software process
improvement and has been a major influence on the global software community. It defines a
5-level framework to take an organization from ad hoc and chaotic software process capabilities
to ones that are mature and disciplined (see table 2). In applying the model, organizations assess
their methods for building software to determine their current capability level. CMM offers
guidance for planning and accomplishing the steps to close the gap between the current and more
mature levels.

                                         Table 2. An Overview of the Software CMM

    Maturity Level                           Description                                      Key Process Areas
    1.  Initial          The software process is characterized as ad hoc,
       Competent         and occasionally even chaotic. Few processes are
      people and         defined, and success depends on individual effort
        heroics          and heroics.
    2. Repeatable        Basic project management processes are                        Requirements management
        Project          established to track cost, schedule, and                      Software project planning
      management         functionality. The necessary process discipline is            Project tracking and oversight
       processes         in place to repeat earlier successes on projects              Subcontract management
                         with similar applications.                                    Software quality assurance
                                                                                       Configuration management
    3.  Defined          The software process for both management and                  Organization process focus
      Engineering        engineering activities is documented,                         Process definition
     processes and       standardized, and integrated into a standard                  Training
     organizational      software process for the organization. All                    Integrated software management
        support          projects use an approved, tailored version of the             Software product engineering
                         organization’s standard software process for                  Intergroup coordination
                         developing and maintaining software.                          Peer reviews
    4.  Managed          Detailed measures of the software process and                 Quantitative process management
      Product and        product quality are collected. Both the software              Software quality management
        process          process and products are quantitatively
        quality          understood and controlled.
    5. Optimizing        Continuous process improvement is enabled by                  Defect prevention
       Continual         quantitative feedback from the process and from               Technology change management
        process          piloting innovative ideas and technologies.                   Process change management
      improvement
   Source: Software Engineering Institute, The Capability Maturity Model, Guidelines for Improving the Software Process.


Associated with each maturity level are key process areas that a software development
organization must master. CMM describes the steps most important to implementing each key
process area. The objective is for the organization to establish a structured process that becomes
used, accepted, and institutionalized throughout the organization. When this is achieved, project
staff and management rely on this process under virtually all circumstances—even in the face of
technical setbacks or compressed schedules.




                                                                 14 

U.S. Department of Commerce                                                  Final Report OSE-15725
Office of Inspector General                                                         September 2003

In January 2002, Census’ Associate Director of Information Technology chartered a software
engineering process group (SEPG), which has embarked on a multi-year improvement plan to
instill a more mature software process throughout the entire bureau. Membership consists of
midlevel managers and software engineers drawn from offices throughout Census, including the
Geography Division. The bureau intends to take the organization-wide software process from
the current Initial level (level 1) to a more mature level.

Entities throughout Census—including the Geography Division—have volunteered projects to be
CMM test cases. Geography Division volunteered two small, low-risk projects that are not part
of the redesign. The SEPG has provided technical support to these projects and disseminated
lessons learned from the use of the new processes such as development of a WBS and
application of configuration management techniques to documents and other non-software
products. In order to familiarize bureau employees with the benefits and requirements of process
improvement, the Census SEPG conducted its first annual conference in April 2003, which
included presentations by leading CMM experts.

C. 	Accelerating Software Process Improvement on the Redesign Will Be A Significant
   Challenge

Absent the guidance provided by a defined process, the initial redesign activities did not produce
the results needed to proceed to the next stage of development. Moreover, considerable work
and technical challenges remain for the redesign to be completed and thoroughly tested before
the 2008 dress rehearsal, and an improved software process is essential to doing so. Upgrading
the redesign’s current process to CMM level 2 would provide the elements most critical to
controlling a complex software project—requirements management; project planning, tracking,
and oversight; configuration management; and quality assurance. According to SEI, however,
the median time for advancing from level 1 to level 2 is approximately 2 years—more time than
the redesign can afford. The redesign project manager recognizes the need for process
improvement on the redesign and is committed to reaching CMM level 2 on an accelerated
schedule. For the project to reap the benefits of level 2, Census must now determine the strategy
and resources needed to significantly accelerate process improvement and provide the
management support needed for this effort.

Toward this end, the redesign project manager recently directed the project’s technical support
contractor to identify key areas in which additional efforts are needed to reach level 2. Using the
areas identified, the contractor and the Geography Division’s SEPG representative have begun
collaborating to devise a strategy for advancement. However, this collaboration is in the early
stages and is occurring simultaneously with redesign development activities. Preliminary
versions of the project management plan include some process improvement elements, but a
comprehensive process improvement strategy and structure do not yet exist. The bureau should
develop an approach for the redesign project that draws on both the achievements thus far of the
Census-wide software process improvement effort and the strategies offered by the contractor.
Designing and implementingon an accelerated basisa software process that enhances
redesign project work and will not be abandoned under the inevitable pressures to meet
scheduled deadlines will be extremely challenging. But without such a process and a senior­




                                                15 

U.S. Department of Commerce                                                    Final Report OSE-15725
Office of Inspector General                                                           September 2003

level commitment to making it work, the bureau will repeat its high risk software development
approach and jeopardize cost, schedule, and performance goals along the way.

D. 	Conclusion

The bureau has not used the more mature software processes that the redesign effort demands,
and hence lacks the institutional experience, tools, and procedures for doing so. Sufficiently
improving the redesign’s software process, in conjunction with implementing the needed project
management improvements and performing ongoing project work, requires considerable
resources and management commitment. However, these improvements are essential to the
successful completion of the reengineered MAF/TIGER processing environment and for the
system to have the time to be thoroughly tested before the 2008 dress rehearsal.

E. 	Recommendations

The Census Bureau Director should ensure that the appropriate management officials take the
following actions as soon as possible:

1. 	 Design and implement CMM level 2 practices for the redesign project. In so doing, it should
     consider methods and practices that have already been developed by the Census SEPG and
     successfully used in pilot tests, as well as those incorporated into the software process of the
     contractor currently working on the redesign project.

2. 	 Ensure that the redesign project’s management plan contains the necessary activities to
     accelerate its advancement to CMM level 2.

3. 	 Provide the continuing management commitment, resources, and oversight to ensure that all
     necessary improved software processes are developed and properly used.



Synopsis of Census’ Response

In its response to our draft report, the Census Bureau generally concurs with the above finding
and recommendations and is taking action to the attain CMM level 2 maturity. Specifically, the
redesign project has been working closely with Census’ SEPG, its CMM level 3 contractor, and
a Geography Division process improvement working group to assess the project’s current
software process capabilities to identify areas needing improvement. Also, the response states
the bureau will revise the redesign’s project management plan and schedule to reflect any
additional activities that may be needed to accelerate advancement to CMM level 2, if necessary.
Moreover, Census has reorganized the decennial directorate to provide additional management
support and oversight to the MAF/TIGER redesign project software improvement process.




                                                 16 

U.S. Department of Commerce                                                   Final Report OSE-15725
Office of Inspector General                                                          September 2003

OIG Comments

The Redesign project’s commitment to attain CMM level 2 maturity is a positive step and will
require significant effort. Because additional activities will be needed to achieve this maturity
level, the baseline project management plan, including the work breakdown structure, must be
updated to reflect the new activities, along with their resource and schedule requirements.




                                                17 

U.S. Department of Commerce                                            Final Report OSE-15725

Office of Inspector General                                                   September 2003


                                   Appendix A. Acronyms


       ACS           American Community Survey

       C/S/P         Cost, schedule, and performance

       CMM           Capability Maturity Model

       COTS          Commercial off-the-shelf

       GIS           Geographic Information System

       GPS           Global Positioning System

       IT            Information technology

       MAF           Master Address File

       MTEP          MAF/TIGER Enhancement Program

       SEI           Software Engineering Institute

       SEPG          Software engineering process group

       TIGER         Topologically Integrated Geographic Encoding and Referencing

       WBS           Work breakdown structure




                                                A-1 

U.S. Department of Commerce                                                              Final Report OSE-15725
Office of Inspector General                                                                     September 2003

    Appendix B. Principles of Project Management Organization, Planning, and Control

At the start of a major project, senior management establishes the project management
organization, typically by issuing a charter that describes the roles and responsibilities of the
project’s management components, including the sponsor (the organization that funds the
project), review board (the officials who oversee it), manager, and other key staff. The charter
gives the project manager the authority to apply organizational resources to project activities.

With the authority granted by the charter, the project manager and key staff (the project team)
begin planning—that is, identifying the work needed to meet project objectives within
constraints such as staff and funding availability, and considering potential risks. The team
defines the project’s scope, refining its high-level requirements and specifying the architecture of
the proposed system. It then devises a strategy for building the new system and all associated
major intermediate products. The team then translates the strategy into a hierarchical work
breakdown structure (WBS) that encompasses all activities needed for project completion. For
the WBS to be useful in controlling the project, component activities must be specified on a scale
small enough to allow for the work to be budgeted, scheduled, assigned, monitored, and
evaluated against completion criteria or performance.1 Activities described on this scale of the
WBS are known as work packages, and these are assembled into an integrated cost, schedule,
and performance (C/S/P) baseline for managing the project. The results of these various steps
are documented in a project plan, which must be regularly updated to reflect any changes to the
project that occur along the way.

With the plan in place, the team then manages the project using controls: the policies and
procedures for obtaining, reporting, and using reliable, timely, and objective project execution
data and comparing it against the baseline for decision-making purposes. OMB Circular A-11
requires agencies to use an automated earned value management system to control major
information technology projects. Earned value is a measure of the value of work performed so
far. Earned value uses original estimates and progress-to-date to show whether the actual costs
incurred are within budget and whether the activities are ahead or behind the baseline plan.
Earned value management allows for an integrated and objective assessment of cost, schedule,
and performance progress by providing measures that show whether the work is being
accomplished within the plan’s cost estimates and schedule goals, and helps identify activities
that are problematic.

As work is conducted, actual cost, schedule, and performance data is collected at regular
intervals and put into the earned value management system that allows it to be compared with the
C/S/P baseline. A project status report is generated that identifies any deviations from the
baseline and that forecasts the final costs and completion dates. With earned value management,
managers can have objective measures beginning early in the project’s life cycle, and if actual
C/S/P exceeds the baseline by a given threshold, may decide to revise the original project plan
and baseline.

1
 Performance refers to activity outputs such as physical products produced, milestones or technical performance
goals achieved, and other indicators that will be used to measure progress.




                                                       B-1
U.S. Department of Commerce                                   Final Report OSE-15725

Office of Inspector General                                          September 2003


                              Appendix C. Bureau’s Response




                                          C-1

U.S. Department of Commerce          Final Report OSE-15725

Office of Inspector General                 September 2003





                              C-2

U.S. Department of Commerce          Final Report OSE-15725

Office of Inspector General                 September 2003





                              C-3

U.S. Department of Commerce          Final Report OSE-15725

Office of Inspector General                 September 2003





                              C-4

U.S. Department of Commerce          Final Report OSE-15725

Office of Inspector General                 September 2003





                              C-5

